                                                      SENSITIVE BUT UNCLASSIFIED



                                                United States Department of State 

                                             and the Broadcasting Board of Governors 

                                                    Office of Inspector General 

Office of Inspector General 


                                                   Office of Inspections 


                                                     Inspection of 

                                        Office of the Director of U.S. Foreign 

                                                      Assistance 


                                               Report Number ISP-I-11-57, August 2011




                                                                  Important Notice

                                This report is intended solely for the official use of the Department of State or the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be made,
                                in whole or in part, outside the Department of State or the Broadcasting Board of
                                Governors, by them or by other agencies of organizations, without prior authorization
                                by the Inspector General. Public availability of the document will be determined by the
                                Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                                may result in criminal, civil, or administrative penalties.




                                                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                                 i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

                                 Table of Contents

Key Judgments                                                                       1
Context                                                                             3
Executive Direction                                                                 4
Policy and Program Implementation                                                   6
   Advancing Policy Priorities                                                      6
   Coordination and Communication                                                   6
   Streamlining                                                                     7
Reprogramming                                                                       8
   Strategic Planning and the Quadrennial Diplomacy and Development Review          8
   The Centrality of the Office of the Director of U.S. Foreign Assistance’s Role   8
   Managing the Budget Formulation Process with the U.S. Agency for International
   Development                                                                       8
   Other Departments and Agencies                                                    9
Resource Management                                                                 12
   Workforce Planning and Management                                                12
   Challenges of a Hybrid Organization                                              14
   Orientation and Training                                                         14
   Administrative Management                                                        16
   Budget                                                                           17
Information Systems                                                                 18
   The Foreign Assistance Coordination and Tracking System Program                  18
Management Controls                                                                 22
List of Recommendations                                                             23
List of Informal Recommendations                                                    25
Principal Officials                                                                 26
Abbreviations                                                                       27




                                             iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Key Judgments
•   In the 5 years since its creation, the Office of the Director of U.S. Foreign Assistance (F) has
    achieved notable progress in establishing and implementing effective mechanisms for the
    coordination of foreign assistance programs administered by the Department of State
    (Department) and the U.S. Agency for International Development (USAID). It is diligent and
    effective in carrying out its mission to align resources with policy priorities.

•   F’s mandate includes the responsibility to identify foreign assistance resources needed to
    support policy goals, both through the annual budget process and in response to new or
    emerging issues. Action bureaus in the Department sometimes neglect to include F in the
    initial consideration of possible initiatives involving foreign assistance. F should request a
    high-level message to Department bureaus and posts explaining its role and underscoring
    where its involvement is required.

•   F is making substantial improvements in the planning, budgeting, and evaluation phases of
    the foreign assistance budget process. A comprehensive streamlining initiative intended to
    relieve the burden on overseas posts and improve the quality and consistency of data was
    well underway at the time of the inspection. The OIG team believes that this initiative is on
    the right track, but it is too early to assess its effectiveness.

•   The proposed internal realignment of F is well conceived to strengthen its overall
    effectiveness as well as its ability to support implementation of the Quadrennial Diplomacy
    and Development Review (QDDR). When the realignment is completed, F management
    should undertake an overall review of its workforce addressing the appropriate number of
    Department and USAID personnel, the mix of Foreign Service and Civil Service positions,
    needed staff skills, and grade structure.

•   The creation of the Office of Budget and Resource Management (BRM) and the Bureau of
    Policy, Planning, and Learning in USAID is changing the planning and budgeting process for
    foreign assistance. F’s leadership and its counterparts in USAID are trying to coordinate their
    work to reduce the risk of duplication and conflict, but preparations of the FY 2013 budget
    are already showing signs of strain. F and USAID offices plan to conduct an “after action”
    assessment. Once completed, they should provide joint written guidance to Department and
    USAID staff to clarify their respective roles.

•   F’s Foreign Assistance Coordination and Tracking System (FACTS) Info database
    effectively supports the Operational Plans, the Performance Plan and Report, and the
    Congressional Budget Justification, but suffers from significant understaffing and inadequate
    inventory controls.

•   F leadership is addressing shortcomings in its system for internal taskings as well as staff
    training and orientation.



                                                  1
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, DC, between April 26 and June 22, 2011 (b) (6)




                                              2
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Context
        This first inspection of F took place during a period of multiple transitions for the office
as it was implementing an internal realignment plan, responding to new mandates, and managing
an evolving relationship with USAID.

        F coordinates and approves 19 separate streams of foreign assistance funding—totaling
some $31 billion in FY 2011—that are managed by the Department and USAID. These streams
fall within three broad categories: Economic and Development Assistance; Security Assistance;
and Humanitarian Assistance.

        F was established in 2006 to provide strategic direction for all U.S. government foreign
assistance and to manage Department and USAID foreign assistance funding. In its short history,
F has had a major impact on the way that foreign assistance is managed. F created the
Standardized Program Structure and Definitions, which is a common, global framework for
organizing resources by program areas and elements. F also developed an annual operational
planning process, a reporting system on performance, and a database—FACTS Info—to
maintain budget allocation, planning, and performance information by country and program.

        The office has had four leaders since it was established. During the previous
Administration, F’s first two directors held dual roles as Director of Foreign Assistance with the
rank of Deputy Secretary of State and as USAID Administrator. When F was created, it absorbed
USAID’s budget and planning functions. The current Administration changed this arrangement
by establishing the position of Deputy Secretary of State for Management and Resources (D(N))
and restoring the position of USAID Administrator as separate from the Director of Foreign
Assistance.

        The 2010 QDDR directs that F will become the Office of Foreign Assistance Resources
to be led by an assistant secretary-equivalent official who reports to the Secretary and the D(N).
The office will continue to manage an integrated Department and USAID foreign assistance
budget formulation process, while retaining important roles in budget execution, strategic
planning, program planning, and performance management. For the first time since F’s
establishment, USAID will submit to the Secretary a comprehensive budget for its programs for
FY 2013, which F will review and integrate into the overall foreign assistance budget proposal
for consideration by the D(N) and the Secretary. The Secretary has assigned F principal roles—
along with the D(N) and the Bureau of Resource Management (RM)—in implementing two
QDDR objectives: “planning, budgeting, and measuring for results” and “elevating and
transforming development to deliver results.” F also has a key role in implementing joint
Department-USAID recommendations on streamlining foreign assistance planning and reporting.

        The office has more than 100 positions, of which about two-thirds belong to USAID and
one-third to the Department. A large majority of staff is Civil Service. The two agencies have
different personnel rules, which add a degree of difficulty to managing the staff. The Executive
Office of the Secretariat (S/ES-EX) provides management support for the office.



                                                 3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Executive Direction
         F is led by the deputy director of U.S. Foreign Assistance pending implementation of the
QDDR decision to establish the position of Director of Foreign Assistance Resources, with the
rank of assistant secretary. The deputy director took over the leadership of F in January 2010
after a long career in the Office of Management and Budget (OMB). He is highly regarded
among his counterparts within and outside the Department. They find him exceptionally
competent, knowledgeable, helpful, easy to work with, and able to set and elicit high standards
of performance. He is viewed as a fair and neutral arbiter. A number of people have called him
the perfect match for this position, particularly as F takes on new responsibilities in strategic
planning and performance assessment and works out a new relationship with USAID.

        The deputy director initiated a realignment of the structure of F, dividing it into four units
each led by a senior-level managing director. The four managing directors, two Department and
two USAID employees, have substantial experience in F. Like the deputy director, they were
rated highly in the OIG survey of F staff. The realignment plan is designed to clarify reporting
lines and accountability, better integrate functional and regional priorities, establish a capacity
for in-depth policy analysis, and strengthen F’s capacity to plan and to assess performance of
foreign assistance programs. The realignment is well conceived to achieve its objectives.
Although the OIG team found widespread staff support for the plan’s design, the early stages of
its implementation has led to some confusion, especially about the roles of and boundaries
between the proposed new unit for policy analysis and the existing units handling functional
bureaus and initiatives and planning and performance management. To some extent this
uncertainty stems from the fact that the realignment is not fully implemented, as it awaits final
agreement from USAID. The OIG team advised F managers to clarify the role of the policy
analysis unit even in advance of finalizing the realignment.

         Communication within F is generally very good. The deputy director meets with the
managing directors every morning and with all of the managers once a week. He hosts a meeting
with all F staff every other week, and the managing director for planning, performance, and
information systems chairs a weekly operations meeting for all staff. That same managing
director produces the weekly “Foreign Assistance Bulletin” for USAID and Department
assistance program staff in Washington and around the world. This vehicle is particularly
effective in keeping all F stakeholders up-to-date on the various planning and budgeting
processes, including their status in Congress. The managing directors host weekly meetings with
their staffs. The OIG team found a very open and informal working environment in which the
deputy director and other managers are accessible, receptive to comments and new ideas, and
supportive of teamwork. The main communication problem during the inspection was the
inability of senior managers to be fully open about the realignment pending agreement by
USAID. The deputy director was working to resolve this problem by engaging senior
management in both the Department and USAID. The Department has already approved the
plan.

        The F front office has an executive officer who supervises the staff work and paper flow
as well as the management and administrative functions. The executive officer works closely and
well with staff in S/ES-EX, which provides some administrative support to F. During the

                                                  4
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

inspection, the executive officer and the front office staff were working on improvements to the
internal tasking and paper flow process and on the development of a more effective orientation
and training program, both of which were issues raised with the OIG team.

         A challenging leadership issue faced by F during the inspection was the need to work out
a relationship with the newly created budget office in USAID. This issue came to the fore in the
building of the budget for FY 2013. Where previously this had been a coordinated
USAID/Department process managed by F, this year USAID instituted an internal process to
formulate a budget request for the programs it manages. To their credit, the deputy director of F
and the director of USAID’s Office of Budget and Resource Management decided that they
would strive for maximum cooperation and transparency to minimize conflict and duplication.
They held a combined meeting with staff where the ground rules for communication were laid
out. Both are actively monitoring the process. This decision was a good example of forward
leaning executive direction. Despite their best efforts, the process is somewhat unwieldy in its
early stages.




                                                5
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Policy and Program Implementation
F provides coordination, strategic direction, and leadership to integrate foreign assistance
planning and resource management across the Department and USAID and works to align
resources with policy priorities. It develops and defends foreign assistance budget requests and
allocates Department and USAID foreign assistance funding. F also promotes good stewardship
of foreign assistance funds by strengthening oversight, accountability, and transparency.

       In coordination with RM, F leads four concurrent processes. F:

           •   collects performance data on prior fiscal years’ foreign assistance programs (FY
               2010);
           •   guides the process of allocating appropriated funds, and reports to Congress their
               intended uses for the current fiscal year (FY 2011);
           •   defends before Congress the President’s foreign assistance budget request for the
               coming fiscal year (FY 2012); and
           •   builds the President’s foreign assistance budget request for the following year (FY
               2013).

Advancing Policy Priorities

         F is diligent and effective in carrying out its mission to align resources with policy
priorities across the broad range of its mandate. For example, F’s planning guidance to missions
sets required funding levels for the three global Presidential initiatives: climate change, food
security, and health. The F-designed budget allocation format identifies how much will be spent
on each initiative, which requires pulling and regrouping data from different foreign assistance
accounts and program elements. F has prepared multiyear funding scenarios and facilitated
discussions among program offices in the Department and USAID that are responsible for
implementing the initiatives. Chiefs of mission may suggest reallocations of initiative funding to
non-initiative programs if there is strong justification. F also developed a format for missions’
annual operational plans to track resources devoted to the Presidential initiatives and the
Secretary’s priorities, several of which cut across accounts and program elements, e.g., gender,
biodiversity, and countering violent extremism. Finally, to plan the FY 2013 and out-year
budgets, F is analyzing how to make operational the specific goals in the Presidential Policy
Directive on Global Development.

Coordination and Communication

        F leadership receives high marks for serving as the honest broker in reconciling
differences among participants in foreign assistance funding. F allows bureaus to appeal planned
allocations of current fiscal year appropriations. F, along with RM, has instituted a process to
allow bureaus to appeal proposed budgets for future years before the Secretary makes final
decisions. Although some in the Department would like even more transparency, not all aspects
of the budget deliberation process at senior levels of the Department or at OMB can or should be
shared and not every program can be funded at the level requested.

                                                6
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Stakeholders appreciate the role F has played in both organizing and providing guidance
to posts and bureaus to navigate the various stages of the budget process. The weekly Foreign
Assistance Bulletin is distributed widely in the field as well as to interested Washington foreign
assistance entities. It is very well received as it consolidates and communicates in plain language
the relevant foreign assistance-related developments of the week and alerts entities charged with
managing foreign assistance resources (operating units) to impending taskings and deadlines.

Streamlining

        There is broad support for the efforts of both F and USAID to streamline elements of
foreign assistance planning and reporting to make them more efficient and transparent and less
burdensome. A Department-USAID streamlining project produced interim recommendations that
reduced some requirements for the FY 2011 Operational Plans and the FY 2013 Mission
Strategic and Resource Plans (MSRP) for programs below a certain funding threshold. The first
actions announced in February 2011 included the reduction in the required and often redundant
narrative in the FY 2011 Operational Plans and The President’s Emergency Plan for AIDS Relief
(PEPFAR) Country Operating Plans and the suspension of the collection of foreign assistance
performance indicators in the MSRP pending completion of a process to rationalize and
dramatically reduce the number of such indicators. The simultaneous submission of draft
Congressional Notifications with the FY 2011 Operational Plans telescoped the time involved in
gaining Congress’ approval to expend FY 2011 resources that were appropriated late in the year.

        Overseas posts and Washington bureaus broadly welcomed these changes. However, in
response to an OIG survey, some smaller posts, particularly those without a USAID presence,
indicated that they still find F’s processes burdensome and difficult. There is also frustration with
changing instructions from year to year.

        The streamlining project made its final recommendations in April 2011. These will
change processes again with the intended outcome of a more unified planning and reporting
cycle, higher quality and more accessible data, and a goal of saving 20 percent of time spent by
Washington and field staff on reporting and data collection.

         Although some have expressed concern that the streamlined format could result in the
omission of data and other information F needs to maintain the comprehensive data that
stakeholders have come to expect, the OIG team believes that streamlining is necessary and that
this Department-USAID effort is on the right track. For example, the OIG team found that,
among various reporting and data collection requirements, bureaus and overseas missions held a
particularly low opinion of the Performance Plan and Report, which reports program
performance for the prior fiscal year and sets targets for results in the following 3 years. They
felt that the Performance Plan and Report did not communicate useful information for making
budgeting decisions. It is appropriate that the Performance Plan and Report will be reengineered
first among a series of reforms to be undertaken in the coming year.




                                                 7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Reprogramming
        As part of its evolving relationship with USAID, F delegated limited reprogramming
authority to USAID in managing its programs. This change is intended to relieve the F director
of involvement in reprogramming decisions that affect programs falling within a particular
objective in the same country that originally received the funding. These decisions are best made
by the implementing organizations. For F to maintain adequate oversight over all foreign
assistance programs, it will be important to receive prompt and accurate reporting from USAID
of reprogramming actions taken.

Strategic Planning and the Quadrennial Diplomacy and Development Review

        The QDDR envisions a greater role for F in foreign assistance planning and performance
assessment. Once the reorganization of RM is completed, F will likely have a clearer mandate
and a greater capacity to manage foreign assistance planning and performance evaluation. The
QDDR generated a list of action items for F and RM, although some items concerned projects
that F and RM were already pursuing. During the inspection, F sent two QDDR implementation
plans to the D(N), one on “planning, budgeting, and managing for results,” the second on
“elevating and transforming development to deliver results,” which responded to the QDDR
mandate.

The Centrality of the Office of the Director of U.S. Foreign Assistance’s Role

         Despite the role F plays in managing foreign assistance, what F does and can do is
insufficiently understood throughout the Department. A recurring problem that F encounters is
being called upon by Department principals to find resources for initiatives that have not been
prepared in consultation with F, and sometimes without a plan for how the funds will be
programmed. Although F is responsive when called on to support policy goals, its participation
late in the process presents a risk of poor results. F’s ongoing internal realignment and the end of
the dual hat arrangement with USAID have added to uncertainty about F’s role and authority, a
point that the inspection team heard from many within the foreign assistance community.

Recommendation 1: The Office of the Director of U.S. Foreign Assistance should request that
the Deputy Secretary of State for Management and Resources issue a statement emphasizing the
Office of the Director of U.S. Foreign Assistance’s central role in foreign assistance planning
and budgeting and requiring that Department bureaus consult with the office whenever the use of
foreign assistance resources is contemplated. (Action: F, in coordination with D(N))

Managing the Budget Formulation Process with the U.S. Agency for International
Development

        The inspection took place early in the process of developing the FY 2013 foreign
assistance budget, as MSRPs and Bureau Strategic and Resource Plans were coming due. This
budget will be the first since F’s establishment in 2006 and the end of the dual hat arrangement
in 2009, and for which USAID will submit a separate proposal to the D(N) and the Secretary for


                                                 8
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

programs that it manages. The newly established BRM is managing the development of
USAID’s budget proposal.

        F’s leadership is proactively engaging BRM to aim for a smooth transition. The
leadership of F and BRM, as well as their staffs, communicate regularly. As noted above, F
convened a combined BRM and F staff meeting to set a tone of close collaboration in this first
joint effort and to express the hope that these parallel processes could occur without imposing
undue demands on regional and functional bureaus. Both the Department and USAID are
planning separate high-level reviews of FY 2013 budget proposals for regions and functions,
chaired by the D(N) and by the Administrator of USAID, which representatives of both agencies
will attend.

        Despite best efforts all around, including the strong commitment to full cooperation by
the leadership of F and BRM, the process appears somewhat disorderly in its early stages.
During the dual-hat arrangement, Department and USAID regional and functional bureaus
collaborated, with F’s facilitation, on joint budget proposals that were submitted to the Director
of Foreign Assistance who was also the USAID Administrator. Multiple, somewhat overlapping
channels are developing for the FY 2013 budget process. F has tasked Department and USAID
bureaus to prepare proposals for an integrated foreign assistance budget while BRM is
developing a separate development budget proposal for the Administrator. Both exercises are
consistent with various conclusions of the QDDR. Some staff are understandably overburdened
and confused. The situation presents a risk of weakening communication and collaboration
between Department and USAID bureaus and imposing redundant or conflicting requirements.
This result would constitute an unfortunate setback in efforts to streamline processes.

        F’s leadership is aware of these problems and the need to clarify lines of authority,
reporting, and communication with their counterparts at USAID. Their intention is to maintain
continuous communication and coordination with BRM throughout the process and conduct a
comprehensive after action review, which should result in a set of agreed procedures. The OIG
team believes that any process agreed to with USAID should be recorded, broadly disseminated,
and enforced within both agencies. It is too late to agree and record a process for FY 2013. F
should seek USAID agreement on a process for FY 2014 on the basis of lessons learned.

Recommendation 2: The Office of the Director of U.S. Foreign Assistance should conclude and
disseminate a written understanding on the budget process with the U.S. Agency for
International Development, including respective roles of the Department’s Office of the Director
of U.S. Foreign Assistance and the U.S. Agency for International Development’s Office of
Budget and Resource Management and participating bureaus in both organizations, for the
preparation of the FY 2014 foreign assistance budget. (Action: F)

Other Departments and Agencies

        In spite of the many leadership, organizational, and procedural changes that have
occurred over the last 5 years, substantial progress is evident in the coordination of foreign
assistance programs managed by the Department and USAID. One aspect of F’s envisioned role
remains unrealized, however. According to 1 FAM 033, F’s responsibilities include to
“…implement a mechanism to effectively facilitate interagency collaboration of foreign
                                                  9
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

assistance programs and policies of other agencies and entities of the U.S. Government…” Most
recently, the QDDR notes the growth in the number of civilian agencies engaged in international
activity and the desirability of aligning their activities. The annual senior reviews convened in
the past by the Department’s Deputy Secretary tried to enlist a whole-of-government approach
by bringing all players together to present plans for their agencies’ foreign assistance activities as
the President’s budget was being developed. This effort included, among others, the Department
of Defense. Over time, participants report that the level of these reviews became less strategic,
interagency participation declined, and they were not viewed as cost-effective.

        The March 2006 National Security Strategy tasked the Director of Foreign Assistance
with developing a “coordinated foreign assistance strategy, including 5-year, country-specific
assistance strategies…” F and its counterparts decided to develop a pilot project involving ten
countries. This Country Assistance Strategy (CAS) embraced a whole-of-government approach
and was implemented in a range of countries (from post-conflict to more stable) with large and
small foreign assistance portfolios across the Department’s six regions.

        F’s 2009 assessment of the CAS pilot exercise found that a whole-of-government
approach to long-term planning was worth continuing but required certain adjustments. The most
important among them were that the full commitment of all U.S. government agencies providing
foreign assistance—not just the Department and USAID—is required and high-level support
among senior managers in Washington is needed if CAS is to succeed as the overarching
strategy document guiding foreign assistance decisions. Other key findings were that, if CAS is
continued, it should be maintained as a long-term foreign assistance strategy (not a budget
exercise) and, as such, should not be merged with the MSRP process. At present, F does not
intend to restart the CAS process. However, as part of its QDDR implementation responsibilities,
F will work with the D(N) and RM to devise a process to develop integrated, country-level
diplomatic and foreign assistance strategies and will incorporate lessons learned from the CAS
pilot. USAID’s new Bureau of Policy, Planning, and Learning intends to have in place by FY
2013, Country Development Cooperation Strategies for all countries receiving USAID-funded
development assistance, but these strategies will, by definition, be less comprehensive as their
focus is limited to those programs administered by USAID.

         At this juncture, F is fully engaged in implementing its internal realignment, managing a
new relationship with USAID, and implementing streamlining and QDDR mandates. F does
facilitate interagency coordination on an ad hoc basis for high-profile, urgent assistance efforts in
countries such as Egypt and Tunisia, or for large complex operations such as in Afghanistan. It is
also reaching out to other agencies to gather information. For example, F has launched a well-
designed and informative Internet site 1—also known as the dashboard—that collects foreign
assistance data from U.S. Government agencies in addition to USAID and the Department.

        There are, or will be, other examples of information sharing and coordination between
the Department and other agencies. The Bureau of Political Military Affairs hosts country
assistance roundtable discussions with the Department of Defense, and the QDDR tasked the
Assistant Secretary for International Narcotics and Law Enforcement with integrating security
and justice sector assistance, including whole-of-government approaches. In addition, the MSRP

1
    www.foreignassistance.gov
                                                 10
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

process usually includes all agencies represented at overseas posts. Once F has worked through
its heavy agenda, it would be appropriate for it to engage more broadly with other U.S.
Government agencies that fund and deliver foreign assistance.




                                              11
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Resource Management
Workforce Planning and Management

       F is staffed by some 100 Civil Service and Foreign Service employees from USAID and
the Department. The staff includes budget analysts, program analysts, country coordinators, and
information technology specialists.

        As noted above, the proposed internal realignment plan is well conceived to fulfill the role
set out for F, to implement the QDDR, and to make the office function more effectively. The OIG
team concludes that several factors make the case for a workforce plan to complement the new
organizational structure envisaged in the realignment plan.

       First, it is likely that USAID will reclaim some positions from F as USAID rebuilds its
budgeting and planning capacities. This presents an opportunity to determine the appropriate and
achievable balance between Department and USAID positions in F. Currently, F has 65 USAID
authorized full-time equivalents, which represent about two-thirds of F’s total full-time
equivalents.

        Without prejudging the outcome of a review of the staffing balance, the OIG team believes
that F should remain a hybrid organization. A combined Department and USAID staff brings
knowledge of both agencies into the organization, enabling F to manage integrated budgeting and
to act as a neutral, credible mediator in reconciling funding disagreements.

        Second, the balance between Civil Service and Foreign Service positions warrants review.
Currently, the staffing complement is heavily weighted toward Civil Service positions, which
outnumber Foreign Service positions (for both the Department and USAID) by a factor of more
than six to one. In principle, Civil Service employees ensure continuity and subject matter
expertise but there has been considerable turnover among Civil Service employees in F. At the
time of the inspection, there were several vacancies in F.

        Additional Foreign Service employees would offer field experience and, in the case of the
Department, would help to build a cadre of officers skilled in budgeting and managing foreign
assistance resources. OIG inspections of U.S. diplomatic missions have found a dearth of
Department officers trained in foreign assistance management. The QDDR sets a goal of building
development diplomacy as a discipline within the Department (for both Civil and Foreign Service)
through expanded training and identifying best practices for managing foreign assistance. An
assignment in F offers the opportunity to develop expertise in strategic planning, budgeting, the
appropriations process, and performance management. Active recruiting by F management in the
larger context of QDDR-mandated activities to raise the profile of development in the Department
can make assignments in F more attractive to mid-level Department officers of all cones. In this
connection, F intends to follow-up on the OIG team’s suggestion that F work with the Bureau of
Human Resources to ensure that an assignment in F figures prominently in the Foreign Service
Career Development Plan, possibly satisfying both a minor requirement and an out-of-cone
assignment.


                                                  12
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Third, as F emerges from its realignment exercise, staffing requirements—both overall
numbers and composition by skill and grade—are likely to change. The realignment plan moves
positions within F but does not change their overall number or grade structure.

       The OIG team also expects staffing requirements to change as F’s relationship with
USAID continues to evolve. F has delegated limited reprogramming authority to USAID and the
QDDR calls for further steps to enhance USAID’s role in executing the budget for programs that it
manages. F’s devolution of certain budget execution responsibilities to USAID should reduce its
workload in this area. On the other hand, F’s reorientation toward a more strategic focus and
coordination with USAID in planning the budget are elements which could increase workload.

        Several ongoing projects in F entail developing or reforming processes. These include:
developing policy analysis tools for budgeting; implementing decisions to streamline foreign
assistance planning and reporting; adding features to the FACTS Info database, and meeting other
requirements of the QDDR, particularly with respect to strategic planning and performance
assessment. The workforce levels required once these projects are completed and additional
functions taken on is not yet known.

         The grade profile in F is heavily weighted toward higher-level positions. Thirty, or nearly a
third, are GS-15/FS-01 or Senior Executive Service/Senior Foreign Service. Under the proposed
realignment, eight GS-15 positions carry no supervisory or program management responsibilities.
By comparison, the grades of strategic planning and budgeting officers in the Department’s
regional and functional bureaus typically range from GS-12 to GS-15 and have supervisory
responsibilities.

Recommendation 3: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Human Resources, should undertake a review of workforce requirements
including the number of staff, grade structure, balance between the Department and the U.S.
Agency for International Development, and balance between Civil and Foreign Service. (Action:
F, in coordination with DGHR)

         Some position descriptions for both Department and USAID employees do not reflect the
work the employee actually performs. As part of the proposed realignment, the Bureau of Human
Resources is performing a review of Department position descriptions affected by the realignment.
A similar review was proposed for USAID’s positions affected by the realignment. However, all
budget analyst, program analyst, and country coordinator position descriptions in F should be
reviewed to ensure they reflect current job responsibilities.

Recommendation 4: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Human Resources, should review all budget analyst, program analyst, and
country coordinator position descriptions to determine whether job responsibilities reflect actual
work performed. The review should include the expanded use of career ladders, as appropriate.
(Action: F, in coordination with DGHR)




                                                  13
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Challenges of a Hybrid Organization

        The hybrid organization poses challenges for F as it is required to navigate the differing
personnel and resource management systems of two agencies, for both Civil Service and Foreign
Service employees. Disparate treatment in the granting of awards and promotions was an issue
frequently raised by F managers and staff during the inspection. USAID’s awards structure and
grade span in career ladder positions are more generous than those of the Department. This
disparity affects morale as employees doing similar work are treated differently.

        Another source of concern is the incompatibility of the Department and USAID
information technology systems, and difficulties encountered in gaining access to them. USAID
employees in F are unable to log onto some of the USAID systems, such as the Phoenix financial
management system, as well as some Department systems, such as the Global Employment
Management System and E-Performance system for personnel matters. The lack of access to the
systems makes it more difficult for employees to do their jobs and complete routine personnel
tasks efficiently. As a result, these tasks must be performed manually. During the inspection, some
of F’s USAID budget staff received tokens to log onto Phoenix but were unsuccessful in accessing
the system. F continues to work with the Bureau of Information Resource Management to resolve
these problems.

         Staff turnover is a source of concern for F leadership. As noted above, turnover seems
high, although the OIG team had insufficient data to determine how the level compares with other
offices in the Department and USAID. Some turnover is expected as F leadership seeks to better
align staff skills with office priorities. The OIG team’s informal feedback from current and former
F staff indicated that some had left for promotion opportunities or family relocation. Other
employees cited concerns with the prolonged transition, uncertainty about F’s future, the
inequities caused by the agencies’ differing personnel practices, and the lack of a comprehensive
training program. With high turnover, F loses the benefit of corporate memory. In addition, new
employees require training in internal processes as well as the substance of their jobs, which can
be taxing for supervisors who are busy with their own day-to-day work demands.

         While F attempts to address some of these challenges, their resolution may be impossible
as it is beyond F’s authority to eliminate disparate personnel practices between the two agencies.
There is an effort underway to educate employees, especially supervisors, about policies and
procedures applicable to both agencies and to clarify these for staff.

        The OIG team discussed with the Bureau of Human Resources some of the problems F is
facing as a result of its hybrid structure. The Bureau of Human Resources is willing to work with
F and with USAID to see whether special arrangements can be devised to address some of these
problems. The OIG team advised F to follow up with the Bureau of Human Resources.

Orientation and Training

          Although S/ES-EX and F provide a check-in process for all new employees, F-specific
orientation materials need to be expanded and improved. USAID holds an orientation for USAID
employees (including those assigned to F) and staff new to the Department are offered general
orientation by the Department. During the inspection, F was in the process of developing its own
                                                14
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

F-specific orientation program for new employees. F should develop training materials on office
processes and procedures specific to the individual units within F. The OIG team believes that this
should be a priority, as it would contribute to a sense of teamwork and enhance staff effectiveness.
A number of F staff members raised this issue with the OIG team.

         Informal Recommendation 1: The Office of the Director of U.S. Foreign Assistance
         should place a high priority on its efforts to develop orientation and training materials on
         office processes and procedures for the benefit of new staff.

          Recruiting employees with the requisite background, skills, and knowledge is also a
challenge in F. Many new hires arrive with little understanding of foreign assistance accounts
although they may have had prior budget and program analysis experience. This problem results in
frustration on the part of both managers and new employees as there is no formal training program
and little time to devote to training staff on the job. While the work is performed well and quality
products are delivered, the situation is less than efficient and takes its toll on the staff. Employees
across F need to know what their colleagues in other sections do and how the various teams relate
to each other. One example involves the distinctions among responsibilities of account analysts on
the Regional and Global Issues team and budget analysts on the Resources and Appropriations
team.

         There is no career development track or training continuum for Civil Service employees in
most F position categories. The Foreign Service Institute’s continuum for Civil Service employees
includes basic training that would be useful for F employees across the board. However, it does not
have a continuum for budget analysts, program analysts, or country coordinators. In addition to the
lack of promotion opportunities beyond certain grade levels, the lack of a training continuum is
among the reasons employees give for leaving F. Five years have passed since F’s creation and the
OIG team believes that it is time for the Department to develop a training continuum for
employees working on budget and foreign assistance issues. A training continuum would be
beneficial to F employees as there would be greater clarity in the skills needed to advance in their
jobs. It could also help F to retain employees and would be consistent with the conclusions of the
QDDR.

Recommendation 5: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Resource Management, the Bureau of Human Resources and the Foreign
Service Institute, should develop a training continuum for its budget analysts, program analysts,
and country coordinators specific to the budget and foreign assistance work the office performs.
(Action: F, in coordination with RM, DGHR, and FSI)

         Some senior staff in F are relatively inexperienced as managers or supervisors, adding
another layer of challenges to this hybrid organization where knowledge of the policies and
procedures of both Department and USAID are needed. F has approached the Bureau of Human
Resources and S/ES-EX to request training for supervisors on topics including performance
management and appraisals, employee relations, and hiring. The intent is to familiarize
supervisors with Department guidelines and processes for carrying out their responsibilities. The
same is planned for USAID at a later date.


                                                   15
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         The OIG team found that several employees did not have performance plans or work
requirements statements and some performance appraisals were overdue or had been completed
late. These issues are discussed further in the Management Controls section of the report.

Administrative Management

          An executive assistant and three full-time staff perform operational and administrative
functions full-time for F. Four other front office staff perform some administrative duties but on a
lesser scale. This amount of administrative staff time is appropriate but will increase if F takes on
additional inventory responsibilities, discussed in the Management Controls section of the report.
The administrative staff performs well. They work closely and have a good relationship with
S/ES-EX and USAID.

          Human resources issues, both routine and those related to the proposed realignment, take
up a great deal of the staff’s time. The section works closely with S/ES-EX and, recognizing that it
serves other customers, does what it can to ease the S/ES-EX workload by doing much of the pre-
work and coordination. Hiring actions provide a good example of this collaborative approach. The
section is also heavily involved with space issues. There have been three forced moves planned or
implemented for F staff over the past year, including moving the information systems staff to an
annex in Rosslyn, Virginia. This has added to the “unsettled” feeling in F. The section has been
working for months with the Bureau of Information Resource Management to arrange adequate
information technology support, to provide in-scope support, as well as finalize a memorandum of
understanding with the Bureau of Administration’s executive office to provide limited out-of-
scope support. Administrative and management initiatives underway include developing standard
office-wide policies and procedures for F.

          Two officers who are physically located at USAID headquarters but report to the
managing director for planning, performance management, and information systems provide the
full range of administrative services for F’s USAID employees including: staffing and recruitment
actions; managing the operating expense budget for USAID employees, including travel and
training; providing security services; liaising with USAID security staff to arrange processing and
upgrading clearances for USAID staff; issuing Metro checks; and handling other personnel
matters. S/ES-EX largely provides these same services for Department employees of F.

         A major concern for F leadership is the lengthy period required for recruitment of people
to replace departing staff. With considerable turnover, key positions are often left vacant for long
periods of time. Mandatory procedures for recruitment in Department and USAID are time-
consuming and dealing with the personnel systems of both agencies makes F’s job more difficult.
The OIG team did not identify shortcomings in F’s approach to recruitment, but in view of its
unique circumstances, it may have to be more aggressive in moving its individual cases through
both systems.

        As mentioned earlier, a challenge brought about by the hybrid nature of F is
standardizing its administrative procedures. USAID employees follow USAID procedures and
Department employees follow Department procedures. There can, however, be confusion about
which agency’s policy should be used for issues such as performance appraisals, telework,
compensatory time, and training. In addition to the lack of clear guidance, there is no central
                                                 16
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

repository where employees and managers can find this information. In this respect, F’s
SharePoint site is an available, underutilized resource. F is in the process of preparing standard
operating procedures that will direct employees to Department or USAID policies. As discussed
in the workforce section of the report, F is working with S/ES-EX to facilitate training sessions
for supervisors that will cover policies affecting their subordinates and outline what is expected of
them as supervisors.

          One outstanding management issue in F is that of clarifying the roles and responsibilities
of the executive assistant. The title of this position does not reflect all of its responsibilities. Under
F’s current deputy director, this position serves as the primary management advisor on operational
and management issues, including human resources; F’s operating budget; and administration. The
incumbent is also the primary liaison with S/ES-EX. This is not the norm for executive assistants
in other parts of the Department, who focus more on policy issues. The deputy director should
make clear that the incumbent has the lead on operational and administrative matters and will
coordinate closely with the senior USAID official on matters related to USAID staff in F. For
example, the incumbent should be involved now in all aspects of QDDR implementation that have
internal resource implications.

         Informal Recommendation 2: The Office of the Director of U.S. Foreign Assistance
         should review the current job responsibilities of the executive assistant, update the
         position description, and change the job title from executive assistant to executive officer.

Budget

         The Department’s operating budget for F is about $3 million excluding staff costs. The
total USAID operating budget for F is $7 million and includes staff costs. Current levels, based on
previous year funding, appear to be adequate.

         The funding of FACTS is complex. The Department and USAID signed a memorandum
of understanding to jointly fund the implementation of the program, reflecting a 50-50 cost sharing
agreement. The Department is the system owner, and USAID funding is provided through periodic
Interagency Funds Transfer Agreements. As FACTS grows, the variety of funding mechanisms
increase, and the budget is more difficult to manage. F is currently working to consolidate the
Office of the U.S. Global AIDS Coordinator’s (S/GAC) reporting and planning system for
PEPFAR into FACTS Info. S/GAC funds that portion of the FACTS program.

         Staff in F’s information systems office developed a spreadsheet to track the FACTS
budget. A contract project manager and a direct-hire information systems specialist in F
successfully manage the budget, ensuring that the 50-50 cost sharing agreement between the
Department and USAID is honored and that money transferred to the Department for FACTS is
indeed spent on FACTS.




                                                    17
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Information Systems
The Foreign Assistance Coordination and Tracking System Program

          The information systems team develops and manages the FACTS Program, which serves
as the central information system for all foreign assistance budgeting, operational planning, and
performance management overseen by F. The information systems office succeeds in supporting
F’s processes, but is plagued by significant understaffing as well as inadequate inventory controls.
Since its creation in 2006, the FACTS program has grown from a small, in-house support system
to one of the Department’s major information technology investments requiring an OMB Exhibit
300 submission. One previous iteration of the FACTS Program, FACTS I, has been retired. The
second iteration, FACTS II, will be retired as soon as FACTS Info has fully taken on its
functionality.

     FACTS Info is one of F’s essential products and tools, with 2,281 active user accounts. The
system stands at the nexus of F and operating units worldwide and is used to create, store, and
analyze budgets, Operational Plans, performance information for Department and USAID
analysis, and for reports to OMB and Congress. FACTS Info is a data repository and reporting
system with the following goals:

         •   to support the planning and justification of budgets for upcoming fiscal years;
         •   to enable a reduction in the number of foreign assistance data calls from Washington
             to the field;
         •   to allow F to analyze and report budget, program, and performance data for prior and
             current fiscal years efficiently, including extensive ad hoc querying capabilities; and
         •   to track policy issues of importance to the Department principals.

         In February 2010, OMB directed F to consolidate PEPFAR reporting and planning
functionality into FACTS Info. As a result, F and S/GAC are now employing an iterative
consolidation approach that allows the FACTS project team to support incrementally PEPFAR
data collection and reporting requirements for FY 2011, and work towards developing full
functionality within FACTS Info for the FY 2012 data collection. In addition, F is considering
FACTS Info to support other data collection needs, such as those for the President’s Food
Security Initiative, USAID’s Global Development Alliance, the Department’s Global Partnership
Initiative, and the collection of data on foreign assistance evaluations.

Streamlining and Integration

        The streamlining report examined for possible areas of integration five information
technology systems: FACTS Info, USAID systems for managing foreign assistance from the
planning through obligation and disbursement stages (Phoenix, OPS Master, and Global
Acquisition and Assistance System), and the Department’s Joint Planning and Performance
System (JPPS), used for building the MSRPs and Bureau Strategic and Resource Plans. The
report found that these five information technology systems are stovepiped and structured in
discordant ways, and that much of the information they require is duplicative. The report further
found that, systems integration would reduce the burden of data collection on the field and allow
                                                  18
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

for increased data analysis and project management ability. The streamlining report recommends,
“Make FACTS Info the primary system for FA [foreign assistance] planning and reporting
activities and strengthen information technology systems to assist operating units with budget
execution and project management.”

          The recommendation does not entail integrating data from the Department’s Global
Financial Management System. Obtaining this data requires that F staff contact the bureaus
managing the funds or RM, or both—a time consuming process. F is working with RM systems
staff to obtain more useful reporting information through the Global Financial Management
System Data Warehouse.

         Having current and reliable information on budget execution, such as expenditures,
obligations, and balances, for both Department and USAID programs can help inform decisions
on reprogramming, funding urgent priorities, and budget planning, and satisfy requests for
information from Congress on the status of program expenditures.

Recommendation 6: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Resource Management, should prepare a study to determine whether there are
cost effective solutions for collecting timely data on budget execution and making the data
accessible to the Office of the Director of U.S. Foreign Assistance, its operating units, and
stakeholders. (Action: F, in coordination with RM)

       The streamlining report project team also recommended that JPPS, now owned by RM,
should be linked to FACTS Info in the short-term, and that F should evaluate whether JPPS
should be integrated into FACTS Info in the long-term. At the time of the inspection, F and RM
had not reached any firm agreements.

Managing Understaffing

       There are three concurrent major development efforts for FACTS Info ongoing: the
PEPFAR module, building in Operational Plan and Performance Plan and Report functionality
from FACTS II, and the budget formulation processes. During the inspection, one information
systems specialist and one contract developer left F, leaving two-thirds of FACTS Info
functionality dependent on a single contract developer. Four developers, funded by S/GAC, are
working on the PEPFAR module. One short-term contract developer joined the information
systems staff during the inspection and is responsible for the Performance Plan and Report, and
one long-term contractor is responsible for the budget formulation process and the Operational
Plan. The current staffing of the software development team in the information systems office is
inadequate. The budget formulation module in FACTS Info faces significant risk because one
contract developer is responsible for its design, development, and deployment. As the inspection
was drawing to a close, the information systems team hired a new developer, who will serve as a
back-up for the budget formulation module.

        The development team is overwhelmed with work. A key software developer has
consistently worked overtime for an extended period. The office does not regularly check security
audit logs. This task is critical to F’s continuing operational needs, especially as FACTS Info may
take on more functions.
                                                    19
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


        The information systems office does not ensure sufficient redundancy in developer
knowledge. Information systems management recently instituted weekly peer reviews to
familiarize all the developers with each other’s work. This is a step toward increasing the
developers’ ability to backstop one another, but it does not ensure adequate crosstraining and
overlap of developer activities. The code for budget formulation functions within FACTS Info is
not documented. Information systems management has not adhered to project management
requirements and best practices (as documented in 5 FAM 620 Information Technology Project
Management), creating unacceptable risk. The information systems office informed the OIG
team that these risks are a function of understaffing. The information systems team lead and
senior management are in the process of recruiting additional developers to work on the
Operational Plan, Performance Plan and Report, and budget formulation modules in FACTS
Info.

       Informal Recommendation 3: The Office of the Director of U.S. Foreign Assistance
       should make hiring an additional contract developer with the requisite technical
       knowledge a high priority.

       Informal Recommendation 4: The Office of the Director of U.S. Foreign Assistance
       should formalize and implement a training program and standardized project
       management methodology to ensure that developers are aware of project management
       requirements consistent with Managing State Projects, especially those related to system
       documentation.

Technical Lead

        Of particular importance is the hiring of a technical lead. During the inspection, the
acting technical lead left F. A permanent technical lead will help the information systems office
to reduce its vulnerabilities by coordinating the developers and ensuring cohesiveness and
sustainability in software design. The information systems team lead recognizes the importance
of hiring a technical lead and has been trying to fill the position for 14 months through two
USAID direct-hire job announcements. USAID has not yet referred to the information systems
office any candidates with the requisite technical skills. During the inspection, F management
continued discussions with USAID and decided to advertise the position for a third time,
including the exact specifications of the programming language required by the position. The
OIG team discussed with F management the possibility of opening the job to Department
candidates if it remains unfilled following the third attempt through USAID recruitment.

Foreign Assistance Coordination and Tracking System Info Documentation

        Information systems staff performing information systems security officer (ISSO)
responsibilities do not have the required ISSO designation letters. F is responsible for handling
certification and accreditation, systems maintenance, and physical security of office-specific
applications and systems. Most of these functions are performed in the information systems
office, but on an ad hoc basis. In accordance with 12 FAM 622, an ISSO and alternate ISSO
must be designated in writing and must take the appropriate training.

                                                20
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 7: The Office of the Director of U.S. Foreign Assistance should obtain
formal designation letters and training for the information systems security officers. (Action: F)

       FACTS Info is hosted by an outside network, not by Department or USAID,
complicating the security of the system. The information systems office would like to outsource
some ISSO duties to experts in the Bureau of Diplomatic Security or in USAID’s Office of the
Chief Information Security Officer. This possibility was under discussion with those offices at
the time of the inspection. The information systems office is also considering contracting out
some security responsibilities to the company that hosts FACTS Info servers. Until the
information systems office formally agrees on designation of ISSO tasks, the information
systems management must ensure that the ISSO duties are being performed in accordance with 5
FAM 824.

Recommendation 8: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Information Resource Management, should rewrite the information systems
security officers’ work requirements to include all duties outlined for the position in the Foreign
Affairs Manual. (Action: F, in coordination with IRM)

       The Information Technology Asset Baseline (ITAB) is the Department’s official
inventory of applications, and is used to meet both internal and external reporting requirements.
FACTS Info system documentation has not been fully entered into ITAB as required in 5 FAM
611 and 5 FAM 864. Much of the documentation required in ITAB has been completed by the
information systems office, but never entered into the system. Without full FACTS Info
documentation in ITAB, other offices such as the Office of Information Assurance do not have
ready access to information, including the system interconnections and risk categorizations
necessary to make fully-informed risk management decisions.

Recommendation 9: The Office of the Director of U.S. Foreign Assistance should submit all
necessary documentation on the Foreign Assistance Coordination and Tracking System to the
Information Technology Asset Baseline. (Action: F)




                                                21
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Management Controls
         The deputy director of F provided a Management Control Statement of Assurance for FY
2010; no management control weaknesses were identified. F is currently working on strengthening
controls over its internal administrative processes by developing policies and procedures for the
office.

          The OIG team found some management control weaknesses in need of attention. Internal
controls over F’s inventory for equipment used in the FACTS system need strengthening. Since
the FY 2010 statement of assurance, F discovered that the FACTS information technology
equipment was never entered into the Integrated Logistics Management System/Non-Expendable
Property Application systems and, thus, is not included in the S/ES-EX annual inventory
certification. This may have occurred because of confusion over which office was responsible. F is
making a good faith effort to locate and account for the equipment. The office conducted an
independent revalidation of the inventory and is working with S/ES-EX to ensure that the
equipment inventory meets guidance outlined in 14 FAM 420, Domestic Personal Property
Management. Plans are underway to create a business unit in S/ES-EX for FACTS equipment and
to designate F as the custodial office.

Recommendation 10: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Office of the Secretariat Executive Office and the Bureau of Administration Office of
Logistics Management, should establish and implement property management procedures for
Foreign Assistance Coordination and Tracking System equipment in accordance with Department
regulations. (Action: F, in coordination with S/ES/EX and A/LM)

         The OIG team found that several employees did not have performance plans or work
requirements statements and had either not received or received overdue performance appraisals.
The Office appears to have established follow-up procedures but no systematic compliance
monitoring process. The hybrid nature of the office contributes to this deficiency as supervisors do
not have access to needed automated performance plan systems. Adding to the confusion are the
differing procedures and deadlines of the Civil Service and Foreign Service performance
assessment periods of both entities. Supervisors’ heavy workloads during the budget cycles that
coincide with performance cycles add to the problem. As noted above, not all supervisors have
access to the Department’s performance management system. Late evaluations and performance
plans hinder the performance management program and disadvantage employees.

Recommendation 11: The Office of the Director of U.S. Foreign Assistance should establish
formal monitoring procedures for performance plans and evaluations and include steps for holding
supervisors accountable for failure to adhere to them. (Action: F)




                                                 22
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

List of Recommendations
Recommendation 1: The Office of the Director of U.S. Foreign Assistance should request that
the Deputy Secretary of State for Management and Resources issue a statement emphasizing the
Office of the Director of U.S. Foreign Assistance’s central role in foreign assistance planning
and budgeting and requiring that Department bureaus consult with the office whenever the use of
foreign assistance resources is contemplated. (Action: F, in coordination with D(N))

Recommendation 2: The Office of the Director of U.S. Foreign Assistance should conclude
and disseminate a written understanding on the budget process with the U.S. Agency for
International Development, including respective roles of the Department’s Office of the Director
f U.S. Foreign Assistance and the U.S. Agency for International Development’s Office of Budget
and Resource Management and participating bureaus in both organizations, for the preparation of
the FY 2014 foreign assistance budget. (Action: F)

Recommendation 3: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Human Resources, should undertake a review of workforce requirements
including the number of staff, grade structure, balance between the Department and the U.S.
Agency for International Development, and balance between Civil and Foreign Service. (Action:
F, in coordination with DGHR)

Recommendation 4: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Human Resources, should review all budget analyst, program analyst, and
country coordinator position descriptions to determine whether job responsibilities reflect actual
work performed. The review should include the expanded use of career ladders, as appropriate.
(Action: F, in coordination with DGHR)

Recommendation 5: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Resource Management, the Bureau of Human Resources and the Foreign
Service Institute, should develop a training continuum for its budget analysts, program
analysts,and country coordinators specific to the budget and foreign assistance work the office
performs. (Action: F, in coordination with RM, DGHR, and FSI)

Recommendation 6: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Resource Management, should prepare a study to determine whether there are
cost effective solutions for collecting timely data on budget execution and making the data
accessible to the Office of the Director of U.S. Foreign Assistance, its operating units, and
stakeholders. (Action: F, in coordination with RM)

Recommendation 7: The Office of the Director of U.S. Foreign Assistance should obtain
formal designation letters and training for the information systems security officers. (Action: F)

Recommendation 8: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Bureau of Information Resource Management, should rewrite the information systems
security officers’ work requirements to include all duties outlined for the position in the Foreign
Affairs Manual. (Action: F, in coordination with IRM)


                                                23
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 9: The Office of the Director of U.S. Foreign Assistance should submit all
necessary documentation on the Foreign Assistance Coordination and Tracking System to the
Information Technology Asset Baseline. (Action: F)

Recommendation 10: The Office of the Director of U.S. Foreign Assistance, in coordination
with the Office of the Secretariat Executive Office and the Bureau of Administration Office of
Logistics Management, should establish and implement property management procedures for
Foreign Assistance Coordination and Tracking System equipment in accordance with
Department regulations. (Action: F, in coordination with S/ES/EX and A/LM)

Recommendation 11: The Office of the Director of U.S. Foreign Assistance should establish
formal monitoring procedures for performance plans and evaluations and include steps for
holding supervisors accountable for failure to adhere to them. (Action: F)




                                              24
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of the Director of U.S. Foreign Assistance should
place a high priority on its efforts to develop orientation and training materials on office
processes and procedures for the benefit of new staff.

Informal Recommendation 2: The Office of the Director of U.S. Foreign Assistance should
review the current job responsibilities of the executive assistant, update the position description,
and change the job title from executive assistant to executive officer.

Informal Recommendation 3: The Office of the Director of U.S. Foreign Assistance should
make hiring an additional contract developer with the requisite technical knowledge a high
priority.

Informal Recommendation 4: The Office of the Director of U.S. Foreign Assistance should
formalize and implement a training program and standardized project management methodology
to ensure that developers are aware of project management requirements consistent with
Managing State Projects, especially those related to system documentation.




                                                 25
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Principal Officials
                                      Name              Arrival Date

Deputy Director                       Robert Goldberg     01/10
Managing Director – Policy Analysis   Paula Lynch         06/06
Managing Director – Resources and     James Painter       08/06
Appropriations
Managing Director – Regional and      Khushali Shah       06/07
Functional Issues
Managing Director – Planning,         Wade Warren         03/08
Performance Management, and
Information Systems




                                         26
                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED

Abbreviations

BBG               Broadcasting Board of Governors

BRM               Office of Budget and Resource Management

CAS               Country Assistance Strategy

D(N)              Deputy Secretary of State for Management and Resources

Department        Department of State

F                 Office of the Director of U.S. Foreign Assistance

FACTS             Foreign Assistance Coordination and Tracking System

JPPS              Joint Planning and Performance System

MSRP              Mission Strategic and Resource Plan

OMB               Office of Management and Budget

PEPFAR            President’s Emergency Plan for AIDS Relief

QDDR              Quadrennial Diplomacy and Development Review

RM                Bureau of Resource Management

S/ES-EX           Executive Office of the Secretariat

S/GAC             Office of the U.S. Global AIDS Coordinator

USAID             U.S. Agency for International Development




                                   27
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE
   SENSITIVE BUT        BUT UNCLASSIFIED
                 UNCLASSIFIED





FRAUD, WASTE, ABUSE, 

OR MISMANAGEMENT 

of Federal programs hurts everyone.



           Contact the 

   Office of Inspector General

          HOTLINE 

to report illegal or wasteful activities:


             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov 



      Office of Inspector General

       U.S. Department of State 

            P.O. Box 9778 

         Arlington, VA 22219 



   Cables to the Inspector General

  should be slugged “OIG Channel” 

      to ensure confidentiality.





   SENSITIVE BUT UNCLASSIFIED

